Nicholas J. Bronni
Solicitor General

Direct Dial: (501) 682-6302
nicholas.bronni@arkansasag.gov

July 31, 2020
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Johnson v. Arkansas, No. 20-48 ***CAPITAL CASE***

Dear Mr. Harris:
I write on behalf of Respondent State of Arkansas to request a 30-day extension of the
deadline for filing a brief in opposition to the petition for a writ of certiorari in this matter. The
response is currently due on August 19, 2020. With this requested extension, the response would
be due on September 18, 2020. Petitioner Stacey Johnson does not oppose this request.
A 30-day extension is reasonable and necessary because of other professional obligations.
Along with other routine responsibilities and lower court matters related to the upcoming
election and COVID-19, I and my staff are responsible for preparing two other briefs in
opposition to certiorari that are due during the same period.
Sincerely,
/s/ Nicholas J. Bronni
Nicholas J. Bronni

cc: Jane Taylor Pucher, jpucher@innocenceproject.org, Counsel for Petitioner

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

